Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




     THE FOOD AND DRUG
 ADMINISTRATION’S OVERSIGHT
  OF CLINICAL INVESTIGATORS’
   FINANCIAL INFORMATION




                    Daniel R. Levinson
                     Inspector General

                      January 2009
                     OEI-05-07-00730
                 Office of Inspector General
                                  http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
Δ   E X E C U T I V E                                       S U M M A R Y


                  OBJECTIVE
                  1. To describe the extent and nature of clinical investigators’ disclosed
                     financial interests reported to the Food and Drug Administration
                     (FDA) for marketing applications approved in fiscal year (FY) 2007.

                  2. To assess FDA’s oversight of clinical investigators’ financial
                     information.


                  BACKGROUND
                  Most new drugs, biological products, and medical devices undergo
                  clinical trials on human subjects before they are marketed in the United
                  States. Sponsors, generally pharmaceutical or device companies,
                  oversee clinical trials conducted by clinical investigators. Before clinical
                  trials begin, sponsors submit a pretrial application to FDA outlining
                  their study design. After clinical trials are completed, sponsors wishing
                  to market their product submit a marketing application to FDA.

                  Sponsors must collect financial information from clinical investigators
                  before clinical trials. However, sponsors submit financial information to
                  FDA only when they submit their marketing application after clinical
                  trials end. For each clinical investigator, sponsors submit a financial
                  form either certifying that the investigator does not have a financial
                  interest or disclosing the financial interest. Federal regulations also
                  allow sponsors to indicate that they acted with due diligence but were
                  unable to obtain financial information from a clinical investigator. For
                  each disclosed financial interest, sponsors must attach details of the
                  financial interest and a record of their actions to minimize potential
                  bias toward clinical trial results.

                  FDA assigns marketing applications to a multidisciplinary team for
                  review. Reviewers evaluate financial information as well as sponsors’
                  actions to minimize any potential bias related to clinical investigators’
                  disclosed financial interests. Reviewers provide written notes that are
                  used to determine whether a marketing application should be approved
                  by FDA. If reviewers suspect that disclosed financial interests
                  compromised data integrity, they are required to take action to ensure
                  the reliability of the data.

                  We reviewed financial forms, attachments, and accompanying FDA
                  review notes for all 118 marketing applications approved by FDA in
                  FY 2007. We also reviewed FDA regulations and guidance, conducted


OEI-05-07-00730   F D A’ S O V E R S I G H T   OF   C L I N I C A L I N V E S T I G AT O R S ’ F I N A N C I A L I N F O R M AT I O N   i
E X E C U T I V E                       S U             M M A R Y


                   structured interviews with FDA officials, and sent an electronic survey
                   to FDA reviewers.


                   FINDINGS
                   One percent of clinical investigators disclosed a financial interest.
                   Among clinical investigators listed in financial forms, 1 percent
                   disclosed at least one financial interest. This represents 206 of the
                   29,691 clinical investigators listed in financial interest forms. Of these
                   206 clinical investigators, almost all disclosed only one financial
                   interest, with a few disclosing two or three financial interests.
                   FDA cannot determine whether sponsors have submitted financial
                   information for all clinical investigators. FDA cannot determine
                   whether sponsors have submitted complete financial information for all
                   clinical investigators because it does not have a complete list of clinical
                   investigators. In addition, FDA does not use onsite inspections to
                   confirm that submitted financial information is complete.
                   Forty-two percent of FDA-approved marketing applications were
                   missing financial information. Twenty-three percent of approved
                   marketing applications were missing a certification or disclosure form
                   or required attachments. In 28 percent of marketing applications,
                   sponsors used the due diligence exemption to indicate that they were
                   unable to provide complete financial information. Although allowed by
                   regulation, sponsors’ use of the diligence exemption results in no
                   financial information for FDA reviewers. Some marketing applications
                   had both missing attachments and the due diligence exemption was
                   marked.
                   FDA did not document a review of any financial information for
                   31 percent of marketing applications. When FDA reviewers used a
                   review template, they were more likely to document a review of
                   financial information.
                   Neither FDA nor sponsors took action for 20 percent of marketing
                   applications with disclosed financial interests. In 20 percent of
                   marketing applications, FDA reviewers did not take action and sponsors
                   did not indicate that they minimized potential bias during the clinical
                   trials. For over half of these marketing applications, reviewers did not
                   document a review of financial information. In addition, when FDA did
                   take action, their actions were inconsistent.



 OEI-05-07-00730   F D A’ S O V E R S I G H T   OF   C L I N I C A L I N V E S T I G AT O R S ’ F I N A N C I A L I N F O R M AT I O N   ii
E X E C U T I V E                       S U             M M A R Y



                   RECOMMENDATIONS
                   FDA should ensure that sponsors submit complete financial
                   information for all clinical investigators.
                   •          FDA should use a complete list of clinical investigators to check
                              that sponsors have submitted financial information for all
                              clinical investigators.

                   •          FDA should check that sponsors have submitted all required
                              attachments to financial forms.

                   •          FDA should update guidance to sponsors regarding the due
                              diligence exemption.

                   •          FDA should add a review of financial information to the onsite
                              inspection protocol.
                   FDA should ensure that reviewers consistently review financial
                   information and take action in response to disclosed financial
                   interests.
                   •          FDA should require that all centers consistently use a template
                              that includes a prompt to document a review of financial
                              information.

                   •          FDA should provide additional guidance and training to
                              reviewers.
                   FDA should require that sponsors submit financial information for
                   clinical investigators as part of the pretrial application process.


                   AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                   RESPONSE
                   FDA expressed concerns about elements of our analysis in three of our
                   findings. In response to FDA’s concerns, we removed employees from
                   our analysis of disclosed financial interests. For FDA’s remaining
                   concerns, we maintain that our analysis is accurate.

                   FDA agreed with all of our recommendations except our final
                   recommendation that FDA require sponsors to submit financial
                   information for clinical investigators as part of the pretrial application
                   process. FDA emphasized that collecting financial information before a
                   clinical trial starts is the sponsors’ responsibility. However, despite this
                   important role for sponsors, FDA has no mechanism in place to ensure



 OEI-05-07-00730   F D A’ S O V E R S I G H T   OF   C L I N I C A L I N V E S T I G AT O R S ’ F I N A N C I A L I N F O R M AT I O N   iii
E X E C U T I V E                       S U             M M A R Y


                   that sponsors are in fact collecting financial information before
                   beginning clinical trials.

                   FDA also stated that it would take significant additional effort for both
                   industry and FDA to collect and review financial information during the
                   pretrial application process. However, pursuant to regulation, FDA
                   already requires sponsors to collect financial information before the
                   start of clinical trials. In addition, basic information on clinical
                   investigators is submitted to FDA as they are added to clinical trials.

                   Further, FDA asserted that this additional effort would not be
                   worthwhile because financial interests are only one form of potential
                   bias and not all clinical trials are presented in the marketing
                   application. Receiving financial information during the pretrial
                   application process would allow FDA to have information on all
                   potential sources of financial bias. FDA could then work effectively with
                   sponsors to identify potential bias. In addition, receiving financial
                   information related to ongoing clinical trials is in keeping with FDA’s
                   stated intention to improve its oversight of ongoing clinical trials.

                   We continue to recommend that FDA require sponsors to submit
                   financial information as part of the pretrial application process.
                   Acknowledging the burden to FDA’s administrative and review staff, we
                   encourage FDA to develop a review of financial information that best
                   balances the additional effort with the potential benefits.




 OEI-05-07-00730   F D A’ S O V E R S I G H T   OF   C L I N I C A L I N V E S T I G AT O R S ’ F I N A N C I A L I N F O R M AT I O N   iv
Δ   T A B L E          O F            C O N T E N T S



         EXECUTIVE SUMMARY .....................................i



         INTRODUCTION ........................................... 1



         F I N D I N G S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14
                    One percent of clinical investigators disclosed a financial
                    interest . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14

                    FDA cannot determine whether sponsors have submitted
                    complete financial information. . . . . . . . . . . . . . . . . . . . . . . . . . . . 15

                    FDA approved applications missing financial information . . . . . . 17

                    FDA did not always note a review of financial information . . . . . 18

                    No action taken in 20 percent of applications with disclosures . . 20



         R E C O M M E N D A T I O N S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23
                    Agency Comments and Office of Inspector General Response . . . 26



         A P P E N D I X E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 30
                    A: Certification of No Financial Interests, Form 3454 . . . . . . . . . 30

                    B: Disclosure of Financial Interests, Form 3455. . . . . . . . . . . . . . 31

                    C: Financial Forms Submitted to Each Center in
                       Fiscal Year 2007. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 32

                    D: Response Rates for Reviewer Survey . . . . . . . . . . . . . . . . . . . . 33

                    E: Description of Food and Drug Administration Action . . . . . . . 34

                    F: Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 35


         A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 44
I N T R O D        U C T             I O N
Δ    I N T R O D U C T I O N


                    OBJECTIVE
                    1. To describe the extent and nature of clinical investigators’ disclosed
                       financial interests reported to the Food and Drug Administration
                       (FDA) for marketing applications approved in fiscal year (FY) 2007.

                    2. To assess FDA’s oversight of clinical investigators’ financial
                       information.


                    BACKGROUND
                    Research has shown that financial relationships exist between medical
                    companies and researchers, including researchers conducting clinical
                    trials for the approval of new drugs, biological products, and medical
                    devices. For example, the Journal of the American Medical Association
                    reported that between 23 percent and 28 percent of academic
                    researchers had financial interests in medical companies. 1
                    Financial relationships between researchers and medical companies
                    may compromise the safety of human subjects and the integrity of
                    research data. After a teenager died while undergoing experimental
                    treatment in 1999, the President encouraged agencies to develop steps
                    to address financial relationships. An investigation into the case found
                    that many of the clinical investigators had financial interests in the
                    sponsor of that clinical trial. 2 In another case, study results from a
                    medical device trial may have been “cast in an overly flattering light,”
                    potentially because researchers at about half the clinical trial sites had
                    financial interests in the device company. 3
                    The Office of Inspector General (OIG) has worked to ensure that
                    financial interests do not compromise clinical trials. FDA developed its
                    1999 regulations regarding the disclosure of clinical investigators’
                    financial interests after OIG officials reported that FDA’s failure to
                    collect information about clinical investigators’ financial interests could
                    constitute a material weakness under the Federal Manager’s Financial

                        1 Justin E. Bekelman, et al., 2003. “Scope and Impact of Financial Conflicts of Interest in
                    Biomedical Research,” Journal of the American Medical Association, vol. 289(4), p. 456.
                    Available online at http://jama.ama-assn.org/cgi/reprint/289/4/454?ijkey=
                    9e08192f3f85916bd89686c6af4713ad33b514ea. Accessed on May 30, 2008.
                      2 FDA, “Human Gene Therapy: Harsh Lessons, High Hopes.” Available online at
                    http://www.fda.gov/fdac/features/2000/500_gene.html. Accessed on May 5, 2008.
                      3 Abelson, Reed, “Financial Ties Cited as Issue in Spine Study.” The New York Times,
                    January 30, 2008, p. 2.



 OEI-05-07-00730    F D A’ S O V E R S I G H T   OF   C L I N I C A L I N V E S T I G AT O R S ’ F I N A N C I A L I N F O R M AT I O N   1
I N T R O D        U C T             I O N


                    Integrity Act. 4 Although FDA determined that a material weakness did
                    not exist, FDA concluded that there was a need to address this issue
                    through rulemaking. 5
                    The Food and Drug Administration
                    Among other activities, FDA is responsible for protecting the public
                    health by ensuring the safety, efficacy, and security of human drugs,
                    biological products, and medical devices (hereinafter referred to as
                    investigational products). 6 Within FDA, the Center for Drug
                    Evaluation and Research (CDER) regulates drugs, the Center for
                    Biologics Evaluation and Research (CBER) regulates biological products
                    that come from living sources (such as vaccines or gene therapies), and
                    the Center for Devices and Radiological Health (CDRH) regulates
                    medical devices.
                    Clinical Trials
                    The Federal Food, Drug, and Cosmetic Act generally requires that most
                    new investigational products undergo clinical trials on human subjects
                    to demonstrate their safety and efficacy before they are approved for
                    sale in the United States. 7 Sponsors, clinical investigators, and
                    institutional review boards (IRB) play a role in clinical trials.

                    Sponsors. Sponsors, often pharmaceutical or device companies, are
                    responsible for developing and testing investigational products in
                    clinical trials.

                    Clinical investigators. Sponsors hire clinical investigators to conduct
                    clinical trials. Clinical investigators may be researchers at academic
                    institutions or practicing physicians. Typically, there are many clinical
                    investigators working in multiple clinical trial sites, including outside
                    the United States, for each clinical trial.

                    There are both primary investigators and subinvestigators. Primary
                    investigators recruit subjects, supervise clinical studies, collect data,


                        4 21 CFR § 54.4; FDA, “Guidance Financial Disclosure by Clinical Investigators.”

                    Available online at http://www.fda.gov/oc/guidance/financialdis.html. Accessed on
                    March 11, 2008.
                        5 63 Fed. Reg. 5233 (Feb. 2, 1998).
                        6 FDA, “FDA’s Mission Statement.” Available online at
                    http://www.fda.gov/opacom/morechoices/mission.html. Accessed on April 3, 2008.
                        7 21 U.S.C. § 355; 21 CFR § 812.20(b)(2); FDA, “The FDA’s Drug Review Process:
                    Ensuring Drugs Are Safe and Effective.” Available online at
                    http://www.fda.gov/fdac/features/2002/402_drug.html. Accessed on March 11, 2008.



 OEI-05-07-00730    F D A’ S O V E R S I G H T   OF   C L I N I C A L I N V E S T I G AT O R S ’ F I N A N C I A L I N F O R M AT I O N   2
I N T R O D        U C T             I O N


                    and report study results to the sponsor. 8 Primary investigators must
                    sign investigator agreements stating that they will comply with all
                    relevant FDA regulations. 9 Subinvestigators assist primary
                    investigators with their responsibilities.

                    Institutional Review Boards. IRBs are committees that oversee clinical
                    investigators’ research to ensure that all steps are taken to protect the
                    rights and welfare of human subjects. 10 IRBs must include members
                    from varying backgrounds and often are composed of physicians,
                    scientists, lawyers, and ethicists. 11 An IRB must approve all clinical
                    trials involving human subjects before clinical trials can begin. 12
                    During their reviews of clinical trials, IRBs are not required to review
                    clinical investigators’ financial information. Yet, the Department of
                    Health and Human Services (HHS) strongly urges IRBs to look at
                    financial information. 13 It has been estimated that a quarter of IRBs
                    routinely conduct such a review. 14
                    FDA’s Oversight of Clinical Trials
                    FDA requires that sponsors file a pretrial application before beginning
                    clinical trials. 15 16 Pretrial applications include the study protocol, the



                        8 21 CFR § 312.60 (drugs and biologics); 21 CFR § 812.100 (devices). FDA, “Guidance on
                    Clinical Trials,” p. 18. Available online at http://www.fda.gov/cder/guidance/959fnl.pdf.
                    Accessed on May 5, 2008.
                        9 Pretrial applications submitted to CDRH include investigator agreements for
                    subinvestigators. (21 CFR § 312.53 (drugs and biologics); 21 CFR § 812.43(c) (devices)).
                        10 21 CFR § 56.
                        11 21 CFR § 56.107.
                        12 21 CFR § 56.101.
                      13 HHS, “Financial Relationships and Interests in Research Involving Human Subjects:
                    Guidance for Human Subject Protection.” May 12, 2004. Available online at
                    http://www.hhs.gov/ohrp/humansubjects/finreltn/finalguid.pdf. Accessed on May 30, 2008.
                      14 National Institutes of Health (NIH), “Financial Conflicts of Interest and Research
                    Objectivity: Issues for Investigators and Institutional Review Boards.” June 5, 2000.
                    Available online at http://grants.nih.gov/grants/guide/notice-files/NOT-OD-00-040.html.
                    Accessed on March 25, 2008.
                        15 Sponsors submit an Investigational New Drug Application to CDER or CBER per
                    21 CFR § 312.20. Sponsors submit an Investigational Device Exemption to CDRH per
                    21 CFR § 812.20.
                       16 FDA uses the term “sponsor” and “applicant” at different times in the regulations.
                    FDA states that generally “the sponsor of the covered study, and the applicant company are
                    the same party.” For the purpose of this report, we refer to sponsors and applicants
                    collectively as “sponsors.” Question Seven, FDA, “Guidance Financial Disclosure by Clinical
                    Investigators.” Available online at http://www.fda.gov/oc/guidance/financialdis.html.
                    Accessed on March 11, 2008.



 OEI-05-07-00730    F D A’ S O V E R S I G H T   OF   C L I N I C A L I N V E S T I G AT O R S ’ F I N A N C I A L I N F O R M AT I O N   3
I N T R O D        U C T             I O N


                    chosen IRB(s), and assurances that human subjects will be protected. 17
                    As part of the pretrial application to FDA, sponsors submit the names,
                    addresses, and qualifications of all primary investigators. They must
                    also list all subinvestigators. Pretrial applications do not include
                    financial information about clinical investigators.

                    Upon successful completion of clinical trials, sponsors that wish to
                    market a product must submit a marketing application to FDA. 18
                    Marketing applications include clinical trial results, descriptions of the
                    investigational products’ components, proposed labeling, and financial
                    information about clinical investigators’ relationship to sponsors.

                    FDA assigns the marketing application to a multidisciplinary team of
                    reviewers. Reviewers represent a variety of scientific disciplines,
                    including medicine, pharmacology, statistics, and chemistry. Reviewers
                    evaluate information in the marketing application relevant to their
                    expertise. 19 These reviews help determine whether FDA will approve a
                    marketing application.

                    Onsite inspections. During and after clinical trials, FDA performs onsite
                    inspections of clinical investigators, sponsors, and IRBs through the
                    Bioresearch Monitoring Program (BiMo). 20 The purpose of the BiMo
                    program is to ensure the protection of research subjects and the
                    integrity of clinical trial data. 21 BiMo officials work in each of the three
                    FDA centers.

                    BiMo conducts both surveillance and directed inspections to determine
                    compliance with FDA regulations. Surveillance inspections are
                    typically routine inspections that occur after FDA receives a marketing
                    application and target completed clinical trials. Directed inspections
                    typically target ongoing clinical trials and occur because of specific
                    concerns about data integrity. These concerns could include clinical
                    investigators’ financial interests.



                        17 21 CFR § 312.23.
                        18 21 CFR § 314.50 (drugs); 21 CFR § 601.2 (biologics); 21 CFR § 814.20 (devices).
                        19 FDA, “The FDA’s Drug Review Process: Ensuring Drugs Are Safe and Effective.”
                    Available online at http://www.fda.gov/fdac/features/2002/402_drug.html. Accessed on
                    March 27, 2008.
                      20 21 U.S.C. §§ 355 and 360i. FDA, “Compliance Program Guidance Manual,”
                    Chapter 48: Bioresearch Monitoring Background.
                      21 FDA, “Bioresearch Monitoring Program.” Available online at
                    http://www.fda.gov/oc/gcp/compliance.html. Accessed on October 30, 2008.



 OEI-05-07-00730    F D A’ S O V E R S I G H T   OF   C L I N I C A L I N V E S T I G AT O R S ’ F I N A N C I A L I N F O R M AT I O N   4
I N T R O D        U C T             I O N


                    Sponsors’ Financial Disclosure Requirements
                    Beginning in 1999, FDA required sponsors submitting marketing
                    applications to disclose the financial interests of primary investigators
                    and subinvestigators (hereinafter referred to as clinical investigators)
                    who contributed data for a “covered clinical study.” 22 In 2001, FDA
                    issued guidance to sponsors providing additional details about the
                    requirements. The guidance defines terms included in the regulations
                    and addresses questions from the industry. 23
                    Pursuant to regulations, sponsors must obtain financial information
                    from clinical investigators before clinical trials. 24 This is done so
                    sponsors can consult with FDA early on regarding “any potentially
                    problematic financial interest,” and take action to minimize any
                    potential study bias. 25 Sponsors can collect financial information from
                    clinical investigators using any format or process.

                    After their initial submission, clinical investigators are required to
                    provide updates to sponsors with any changes in their financial status
                    during clinical trials and in the year after clinical trials are complete. 26
                    Sponsors must maintain complete records detailing clinical
                    investigators’ financial information during clinical trials and for 2 years
                    after FDA approves a marketing application. 27
                    Sponsors are required to submit financial information on clinical
                    investigators to FDA only when they submit the marketing application
                    after clinical trials are complete.

                    FDA requires that sponsors disclose the following financial interests for
                    all clinical investigators, their spouses, and their dependent children:

                    (1) any financial arrangement between the sponsor whereby the value
                    of the compensation could be influenced by the study outcome;


                      22 FDA defines a “covered clinical study” as any study submitted in a marketing
                    application relied upon to show a product is effective or any study to which a single
                    investigator significantly contributes to the demonstration of safety. For purposes of this
                    report, we refer to covered clinical studies as clinical trials. 21 CFR §§ 54.4 and 54.2(e).
                        23 FDA, “Guidance Financial Disclosure by Clinical Investigators.” Available online at
                    http://www.fda.gov/oc/guidance/financialdis.html. Accessed on March 11, 2008.
                        24 21 CFR § 312.53(c)(4) (drugs and biologics); 21 CFR § 812.43(c) (devices).
                        25 67 Fed. Reg. 6042 (Feb. 8, 2002); Question 6, FDA, “Guidance Financial Disclosure by
                    Clinical Investigators.” Available online at
                    http://www.fda.gov/oc/guidance/financialdis.html. Accessed on March 11, 2008.
                        26 21 CFR § 312.53 (drugs and biologics); 21 CFR § 812.43(c) (devices).
                        27 21 CFR § 54.6.




 OEI-05-07-00730    F D A’ S O V E R S I G H T   OF   C L I N I C A L I N V E S T I G AT O R S ’ F I N A N C I A L I N F O R M AT I O N   5
I N T R O D        U C T             I O N


                    (2) a sum of all significant payments exceeding $25,000 made on or
                    after February 2, 1999, from the sponsor. Payments include research
                    grants, retainers for ongoing consultation, or a general honorarium.
                    They do not include the payments, such as salaries, associated with
                    conducting the clinical trial;

                    (3) any proprietary interest in the tested product, including patents,
                    trademarks, or licensing agreements; and

                    (4) equity in the sponsor’s public company exceeding $50,000, or equity
                    for which the value cannot be determined through public prices. 28
                    Certification: Financial Interests and Arrangements of Clinical
                    Investigators, Form 3454. Sponsors use Form 3454 to list clinical
                    investigators who have no financial interest with the sponsor. Sponsors
                    can submit a single certification form for multiple clinical investigators
                    involved with clinical trials. If sponsors cannot obtain financial
                    information from a clinical investigator, they can indicate on the
                    certification form that they acted with due diligence to collect the
                    information. 29
                    FDA’s 2001 guidance defines due diligence as “a measure of activity
                    expected from a reasonable and prudent person under a particular
                    circumstance.” 30 In 2002, in comments to a Federal Register notice,
                    FDA was asked to define what constitutes due diligence. In response,
                    FDA advised sponsors to try to locate clinical investigators through at
                    least two telephone calls, and document notes of the calls. In addition,
                    FDA recommended that sponsors follow up in writing, sending at least
                    two certified letters. 31
                    If sponsors indicate due diligence, they are expected to describe why
                    they were unable to obtain the financial information and document




                        28 21 CFR §§ 54.2 and 54.4(a)(3); FDA, “Guidance Financial Disclosure by Clinical
                    Investigators.” Available online at http://www.fda.gov/oc/guidance/financialdis.html.
                    Accessed on March 11, 2008. We combined the regulations’ two equity disclosures in this
                    list because they are combined on the form that sponsors complete when disclosing a
                    clinical investigator’s financial interests.
                        29 21 CFR § 54.4.
                        30 Question Three, FDA, “Guidance Financial Disclosure by Clinical Investigators.”
                    Available online at http://www.fda.gov/oc/guidance/financialdis.html. Accessed on
                    March 11, 2008.
                        31 67 Fed. Reg. 6041 (Feb. 8, 2002).




 OEI-05-07-00730    F D A’ S O V E R S I G H T   OF   C L I N I C A L I N V E S T I G AT O R S ’ F I N A N C I A L I N F O R M AT I O N   6
I N T R O D        U C T             I O N


                    their attempts to obtain the information. 32 Sponsors are required to
                    provide the reasons why they were unable to obtain the information
                    when they claim the due diligence exemption on the certification form.
                    Sponsors are not required to submit documentation of their attempts to
                    contact clinical investigators nor describe their attempts. See
                    Appendix A for a copy of the certification form.

                    Disclosure: Financial Interests and Arrangements of Clinical Investigators,
                    Form 3455. Sponsors use Form 3455 to disclose clinical investigators’
                    financial interests. The form lists FDA’s four financial disclosure
                    categories. Sponsors must submit a separate disclosure form for each
                    clinical investigator with financial interests.

                    Sponsors must include two attachments with each disclosure form. The
                    first must provide specific details about the financial interest. The
                    second must describe any steps taken to minimize the potential bias
                    resulting from disclosed financial interests. 33 FDA does not specify the
                    actions sponsors must take to minimize potential bias. See Appendix B
                    for a copy of the disclosure form.
                    FDA’s Oversight of Financial Information
                    When FDA receives a marketing application, it performs an
                    administrative check to ensure that sponsors have included the required
                    information, including financial forms. If sponsors neglect to submit
                    financial forms, FDA can refuse to accept a marketing application for
                    review. 34 When FDA accepts a marketing application for review, FDA
                    reviewers evaluate the application and clinical trial data, including
                    whether disclosed financial interests compromised the integrity of the
                    trial data.

                    Marketing application review. Among other things, the marketing
                    application review includes an evaluation of clinical investigators’
                    disclosed financial interests to determine their potential effect on data
                    integrity. FDA reviewers provide written notes regarding their reviews.




                        32 FDA, Form 3455, “Disclosure: Financial Interests and Arrangements of Clinical

                    Investigators.” Available online at http://www.fda.gov/opacom/morechoices/fdaforms/FDA-
                    3455.pdf. Accessed on October 11, 2007. FDA, “Guidance Financial Disclosure by Clinical
                    Investigators.” Available online at http://www.fda.gov/oc/guidance/financialdis.html.
                    Accessed on March 11, 2008.
                        33 21 CFR § 54.4(a)(3)(v).
                        34 21 CFR § 54.4(c).




 OEI-05-07-00730    F D A’ S O V E R S I G H T   OF   C L I N I C A L I N V E S T I G AT O R S ’ F I N A N C I A L I N F O R M AT I O N   7
I N T R O D        U C T             I O N


                    Division directors 35 read these review notes to determine whether to
                    recommend approval for a marketing application. 36
                    The process for reviewing financial information within the marketing
                    application differs by center. CDER has a review template that
                    reviewers are required to use to review various aspects of marketing
                    applications, including financial information. CBER has a draft review
                    template that reviewers may use, and that includes a review of financial
                    information. CDRH does not have a review template.

                    FDA action in response to disclosed financial interests. If FDA determines
                    that clinical investigators’ disclosed financial interests raise a serious
                    question about the integrity of the data, FDA is required to take action
                    to ensure the reliability of the data. 37 For example, FDA reviewers may
                    take action if they discover that results from clinical trial sites managed
                    by clinical investigators with disclosed financial interests were more
                    favorable than average.

                    Regulations do not stipulate specific actions, but offer examples of
                    possible actions. 38 Suggested actions include requesting an onsite
                    inspection, requesting that the sponsor submit further data analyses or
                    conduct additional independent studies, and refusing to review clinical
                    trial results. 39
                    Related Reports
                    An OIG report issued in 2000 found that FDA’s overall oversight of
                    clinical investigators was limited. 40 Additionally, a 2007 OIG report
                    found that FDA had limited ability to effectively manage BiMo. 41 The




                       35 Centers may refer to this position under various titles, including office director and
                    team leader. For this report, we use the term division director to indicate the FDA official
                    who provides recommendations to the FDA Commissioner on whether to approve a
                    marketing application.
                        36 FDA, “The FDA’s Drug Review Process: Ensuring Drugs Are Safe and Effective.”
                    Available online at http://www.fda.gov/fdac/features/2002/402_drug.html. Accessed on
                    March 27, 2008.
                        37 21 CFR § 54.5(c).
                        38 Ibid.
                        39 Ibid.
                        40 OIG, “FDA Oversight of Clinical Investigators,” OEI-05-99-00350, June 2000.
                        41 OIG, “The Food and Drug Administration’s Oversight of Clinical Trials,”
                    OEI-01-06-00160, September 2007.



 OEI-05-07-00730    F D A’ S O V E R S I G H T   OF   C L I N I C A L I N V E S T I G AT O R S ’ F I N A N C I A L I N F O R M AT I O N   8
I N T R O D        U C T             I O N


                    evaluation estimated that FDA inspected 1 percent of clinical trial sites
                    between 2000 and 2005. 42
                    In 2001, the Government Accountability Office (GAO) issued a report
                    that compared financial disclosure requirements of FDA and NIH. GAO
                    found that, unlike NIH, FDA is not notified of clinical investigators’
                    financial information until after clinical trials are complete. GAO
                    recommended that HHS develop specific guidance or policy concerning
                    financial information. In response, HHS stated that to the extent
                    specific guidance or policy was developed, it would be coordinated
                    throughout the Department. 43


                    METHODOLOGY
                    Scope
                    To describe the extent and nature of clinical investigators’ financial
                    interests, we reviewed disclosed financial interests from marketing
                    applications approved in FY 2007. We did not review other types of
                    applications approved by FDA; for instance, applications for generic
                    products. By limiting our study to marketing applications, we focused
                    on products that have been newly released to the public.

                    This evaluation reviewed FDA’s oversight of clinical investigators’
                    financial interests. We did not review FDA’s oversight of the financial
                    interests of FDA employees or FDA advisory board members.
                    Data Collection
                    We collected financial forms and attachments from all 118 marketing
                    applications approved in FY 2007. This includes 73 marketing
                    applications approved by CDER, 32 approved by CDRH, and
                    13 approved by CBER. See Appendix C for financial forms submitted to
                    each center in FY 2007.

                    We also conducted six structured group interviews with FDA center
                    officials and FDA BiMo officials from each of the three centers between
                    January and March 2008. We discussed FDA’s process for overseeing
                    financial information, guidance to sponsors and reviewers, action taken
                    in response to disclosed financial interests, and BiMo reviews of
                    financial information.


                        42 Ibid.
                        43 GAO, “Biomedical Research: HHS Direction Needed to Address Financial Conflicts of
                    Interest,” GAO-02-89, p. 39, November 2001.



 OEI-05-07-00730    F D A’ S O V E R S I G H T   OF   C L I N I C A L I N V E S T I G AT O R S ’ F I N A N C I A L I N F O R M AT I O N   9
I N T R O D        U C T             I O N


                    To assess FDA’s review of financial information and actions taken in
                    response to this review, we collected FDA reviewers’ notes, completed
                    review templates, and summary review documents (hereinafter referred
                    to as review notes) corresponding to their evaluation of financial
                    information in the marketing applications.

                    To further understand FDA’s review process, we sent an electronic
                    survey to FDA reviewers in January 2008. Survey questions pertained
                    to reviewers’ process for evaluating financial information, any
                    instructions they received, and whether they had ever taken action in
                    response to disclosed financial interests.

                    We sent the survey to 790 potential reviewers identified by FDA center
                    officials. Of those, 337 reviewers responded and, of these, 162 indicated
                    that they had reviewed financial information in the past 3 years. We do
                    not project the responses to all FDA reviewers and present survey data
                    only from the 162 reviewers as secondary evidence in our findings. See
                    Appendix D for a breakdown of survey responses by FDA center.
                    Data Analysis
                                                                            interests To
                    Describing the extent and nature of disclosed financial interests.
                    describe the extent of disclosed financial interests, we reviewed all
                    financial forms in marketing applications to classify each clinical
                    investigator as: (1) having no financial interest, (2) disclosing a
                    financial interest, or (3) unable to provide financial information. In
                    total, sponsors listed 29,691 clinical investigators on financial forms.
                    We did not include clinical investigators that the sponsor identified as
                    employees because it was ambiguous whether sponsors were disclosing
                    a financial arrangement for these employees. Sponsors are exempt from
                    submitting financial information for employees. 44
                    We also described the extent of disclosed financial interests by
                    calculating the percentage of marketing applications with at least one
                    disclosed financial interest.

                    To describe the nature of clinical investigators’ disclosed financial
                    interests, we categorized financial interests using FDA’s four financial
                    disclosure categories listed on the disclosure form. We used disclosed
                    financial interests as the unit of analysis for this assessment because
                    clinical investigators could disclose multiple financial interests in a
                    marketing application.

                        44 21 CFR § 54.4.




 OEI-05-07-00730    F D A’ S O V E R S I G H T   OF   C L I N I C A L I N V E S T I G AT O R S ’ F I N A N C I A L I N F O R M AT I O N   10
I N T R O D        U C T             I O N


                    In four marketing applications, sponsors disclosed 12 financial interests
                    that fell below the federally defined threshold. We still categorized
                    these as disclosed financial interests because sponsors informed FDA of
                    financial relationships with clinical investigators.

                    Assessing whether marketing applications contained complete financial
                    information. We assessed whether marketing applications had complete
                    financial information by reviewing submitted financial forms and
                    attachments. We categorized a marketing application as having
                    complete financial information if it met four criteria: (1) included either
                    a certification or disclosure form, (2) included an attachment with a
                    description of steps taken to minimize potential bias with each
                    disclosure form, (3) included an attachment detailing descriptions of
                    disclosed financial interests with each disclosure form, and (4) did not
                    claim the due diligence exemption indicating that at least one clinical
                    investigator did not provide financial information. We categorized a
                    marketing application as having incomplete financial information if it
                    failed to meet any of these four criteria.

                    Assessing FDA’s review of financial information. To assess FDA’s review
                    of financial information in FY 2007, we analyzed FDA’s review notes.
                    We calculated the percentage of marketing applications with any
                    mention of financial information in the review notes. For this analysis,
                    we excluded administrative checklists that are used to check for
                    financial interests forms. Checklists help ensure that sponsors submit
                    forms, but do not indicate whether FDA reviewers read and evaluated
                    the forms.

                    We also calculated the percentage of marketing applications with
                    disclosed financial interests that had detailed review notes. We
                    categorized review notes as detailed if they mention any of four things:
                    (1) the sponsors’ actions to decrease potential bias, (2) aspects of the
                    study design that may have minimized potential bias, (3) action taken
                    to ensure data reliability, or (4) a request for additional financial
                    information from sponsors.

                    Assessing sponsors’ and FDA actions in response to disclosed financial
                    interests. To assess the extent of sponsors’ actions, we calculated the
                    percentage of marketing applications on which sponsors indicated that
                    they took action to minimize potential bias for all clinical investigators
                    with disclosed financial interests. Regulations require that sponsors
                    report their actions to minimize potential bias for all disclosed financial
                    interests. Thus, we did not count two marketing applications on which

 OEI-05-07-00730    F D A’ S O V E R S I G H T   OF   C L I N I C A L I N V E S T I G AT O R S ’ F I N A N C I A L I N F O R M AT I O N   11
I N T R O D        U C T             I O N


                    sponsors reported their steps for only some disclosed financial interests
                    as sponsors taking actions.

                    To assess the extent of FDA reviewers’ actions, we calculated the
                    percentage of marketing applications with review notes indicating any
                    action taken or requested by an FDA reviewer. To assess the nature of
                    FDA reviewers’ actions, we reviewed FDA’s review notes. We
                    categorized FDA’s actions based on the examples listed in FDA
                    regulation. Because the regulations do not provide an exhaustive list,
                    we also considered reanalyzing clinical trial results from clinical
                    investigators with disclosed financial interests as an action.
                    Limitations
                    The number of clinical investigators listed on financial forms from
                    marketing applications may be slightly inflated. Sponsors often listed
                    clinical investigators without financial interests, as an attachment to
                    the certification form, by their clinical trial site. Because clinical
                    investigators may work on multiple clinical trial sites, investigators
                    may have been listed more than once. We attempted to address this by
                    conducting electronic searches for duplicate names. As a result, we
                    expect any potential overestimation to be minimal.

                    We relied solely on review notes as an indication that FDA reviewers
                    evaluated financial information. FDA reviewers are required to
                    evaluate financial information but are not required to provide written
                    documentation of this review. Therefore, FDA reviewers may have
                    evaluated financial information but failed to note their review.
                    Nonetheless, written notes remain the most reliable evidence of an FDA
                    review. Division directors review these written notes when determining
                    whether to recommend that FDA approve a marketing application. 45
                    We also relied solely on review notes as an indication that FDA
                    reviewers took action in response to disclosed financial interests. FDA
                    reviewers may have taken action in response to disclosed financial
                    interests but failed to note their action. Similar to assessing whether
                    FDA reviewers evaluated financial information, written notes remain
                    the most reliable evidence of FDA action.




                        45 FDA, “The FDA’s Drug Review Process: Ensuring Drugs Are Safe and Effective.”

                    Available online at http://www.fda.gov/fdac/features/2002/402_drug.html. Accessed on
                    March 27, 2008.



 OEI-05-07-00730    F D A’ S O V E R S I G H T   OF   C L I N I C A L I N V E S T I G AT O R S ’ F I N A N C I A L I N F O R M AT I O N   12
I N T R O D        U C T             I O N


                    Standards
                    This study was conducted in accordance with the “Quality Standards for
                    Inspections” issued by the President’s Council on Integrity and
                    Efficiency and the Executive Council on Integrity and Efficiency.




 OEI-05-07-00730    F D A’ S O V E R S I G H T   OF   C L I N I C A L I N V E S T I G AT O R S ’ F I N A N C I A L I N F O R M AT I O N   13
F    I N D I N G       S
Δ       F I N D I N G S

    One percent of clinical investigators disclosed a            Among clinical investigators
                                    financial interest           listed in financial forms,
                                                                 1 percent disclosed at least one
                      financial interest. This represents 206 of the 29,691 clinical
                      investigators. Of the 206 clinical investigators, almost all disclosed only
                      one financial interest, with a few disclosing two or three financial
                      interests. Four clinical investigators disclosed two financial interests
                      and two clinical investigators disclosed three financial interests.
                      Disclosed financial interests were associated with almost half of marketing
                      applications
                      Forty-two percent of marketing applications included at least one
                      clinical investigator with a disclosed financial interest. This represents
                      49 of 118 marketing applications.

                      Although most applications had few disclosed financial interests, some
                      applications had numerous clinical investigators with disclosed
                      financial interests. Sixty-seven percent of the 49 marketing
                      applications with disclosed financial interests had one or two clinical
                      investigators with a disclosed financial interest. On the other hand,
                      12 percent of these 49 marketing applications included 10 or more
                      clinical investigators with a disclosed financial interest. The application
                      with the most disclosed financial interests had 38 clinical investigators
                      with financial interests.
                      Most disclosed financial interests were payments from sponsors
                      Seventy-seven percent of disclosed financial interests were for payments
                      from sponsors. Most payments were for consulting services or general
                      honoraria. Though not required, 53 percent of payment disclosures
                      included a specific dollar amount. The median reported payment was
                      $47,252, almost twice the $25,000 minimum payment reporting
                      threshold. The highest reported payment was a sponsors’ payment of
                      $3.9 million to a clinical investigator’s affiliated institution.

                      Nineteen percent of disclosed financial interests were for equity
                      interests, primarily stock options. Though not required, 46 percent of
                      equity disclosures included a specific dollar amount. The median
                      reported equity interest was $65,000. This exceeds the $50,000
                      minimum equity reporting threshold by $15,000. The highest reported
                      equity interest was $148,751.

                      Two percent of disclosed financial interests were for proprietary
                      interests. Most of the marketing applications that included proprietary
                      interests were for medical devices.

    OEI-05-07-00730   F D A’ S O V E R S I G H T   OF   C L I N I C A L I N V E S T I G AT O R S ’ F I N A N C I A L I N F O R M AT I O N   14
F   I N D I N G              S


                            Lastly, 1 percent of disclosed financial interests were “financial
                            arrangements that could influence the study outcome.” Sponsors
                            included additional descriptions of only one of these disclosed financial
                            interests. This clinical investigator was a patent owner of the product.
                            See Table 1 for a list of clinical investigators’ disclosed financial
                            interests by FDA’s financial disclosure categories.


                         Table 1: Disclosed Financial Interests
                                                                                                                                                      Percentage of Total
                                                                                                             Number of Disclosed                      Disclosed Financial
                        FDA Financial Disclosure Category                                                      Financial Interests                              Interests
                        Payments from sponsors                                                                                             165                77 percent
                        Equity interests                                                                                                     41               19 percent
                        Proprietary interests in tested product                                                                                   5            2 percent

                        Financial arrangements that could influence
                        the study outcome                                                                                                         3            1 percent

                            Total                                                                                                         214*              99 percent**
                      * Clinical investigators can disclose more than one financial interest. There were 206 clinical investigators with
                      214 disclosed financial interests.

                      ** Total does not equal 100 percent because of rounding.

                      Source: OIG analysis of marketing applications, 2008.




                                                                    FDA cannot determine whether
FDA cannot determine whether sponsors have
                                                                    sponsors have submitted financial
 submitted financial information for all clinical                   information for all clinical
                                 investigators                      investigators because it does not
                            have a complete list of clinical investigators. In addition, FDA does not
                            use onsite BiMo inspections as a mechanism to confirm that submitted
                            financial information is complete. These limitations could result in FDA
                            being unaware of a clinical investigator’s financial interest and thus
                            unable to gauge its potential bias on clinical trial results.
                            FDA does not have a complete list of clinical investigators
                            FDA cannot systematically check whether marketing applications have
                            financial information for all clinical investigators because FDA does not
                            maintain a complete list of clinical investigators. FDA was able to
                            provide a complete list of clinical investigators for only 7 percent of
                            marketing applications approved in FY 2007.

                            Although FDA maintains a database that captures demographic and
                            inspection information on clinical investigators, it currently cannot be
                            used to easily compile a complete list of clinical investigators per

    OEI-05-07-00730         F D A’ S O V E R S I G H T   OF   C L I N I C A L I N V E S T I G AT O R S ’ F I N A N C I A L I N F O R M AT I O N                         15
F   I N D I N G        S


                      marketing application. FDA’s Bioresearch Monitoring Information
                      System database contains information for some clinical investigators.
                      However, the database does not list subinvestigators for two FDA
                      centers. In addition, the database only includes clinical investigators
                      listed in pretrial applications, and does not include any clinical
                      investigators who might have been recruited once the clinical trials
                      were underway.
                      BiMo inspections do not routinely review financial information
                      BiMo inspectors are not instructed to routinely review financial
                      information as part of their inspection protocol. Currently, BiMo
                      inspectors review financial information only when an FDA reviewer
                      specifically requests it or when an inspector takes personal initiative.
                      Although BiMo inspects only a small portion of all clinical trial sites,
                      these inspections are FDA’s only onsite and indepth tool for reviewing
                      sponsors and clinical investigators.

                      When BiMo inspectors reviewed financial information in the recent
                      past, they found that sponsors had submitted incomplete financial
                      information to FDA. For instance, in 2005, an inspection found that a
                      clinical investigator did not submit financial information for a
                      subinvestigator. As a result, FDA issued a letter to the clinical
                      investigator suggesting areas of improvement.

                      In another example, FDA reviewers, in 2006, requested an inspection of
                      clinical investigators and a sponsor because of concerns about financial
                      interests. BiMo inspectors found that a clinical investigator violated
                      regulations by failing to disclose financial interests to the sponsor.
                      BiMo inspectors also found that the sponsor failed to disclose the
                      financial interests of an additional five clinical investigators to FDA.
                      FDA issued the sponsor a letter suggesting areas of improvement.

                      Moreover, when BiMo inspectors reviewed a sponsor in 2005, they found
                      that the sponsor collected financial information shortly before the
                      submission of the marketing application and not before beginning the
                      clinical trial. According to regulation, sponsors are required to collect
                      financial information from clinical investigators before beginning
                      clinical trials.




    OEI-05-07-00730   F D A’ S O V E R S I G H T   OF   C L I N I C A L I N V E S T I G AT O R S ’ F I N A N C I A L I N F O R M AT I O N   16
F   I N D I N G        S



       Forty-two percent of FDA-approved marketing                Forty-two percent of
                                                                  approved marketing
      applications were missing financial information
                                                                  applications did not include
                                                                  complete financial
                      information. Twenty-three percent of these marketing applications
                      were missing required financial forms or attachments. Twenty-eight
                      percent were missing financial information because sponsors used the
                      due diligence exemption to indicate that they were unable to provide
                      financial information. Although allowed by regulation, sponsors’ use of
                      the diligence exemption results in no financial information for FDA
                      reviewers. Some marketing applications had both missing attachments
                      and the due diligence exemption marked.
                      Twenty-three percent of approved marketing applications did not include
                      required financial forms or attachments
                      Twenty-three percent of all 118 marketing applications approved in
                      FY 2007 were missing financial interest forms or required attachments
                      with disclosed financial interests. Of these, 7 percent did not include
                      any certification or disclosure forms for any clinical investigators.

                      Among marketing applications with disclosed financial interests,
                      24 percent were missing the sponsors’ actions to minimize potential bias
                      resulting from disclosed financial interests. In addition, 18 percent of
                      marketing applications with disclosed financial interests were missing
                      detailed descriptions of the financial interests.
                      Twenty-eight percent of marketing applications indicated that sponsors
                      were unable to provide complete financial information
                      Twenty-eight percent of marketing applications included certification
                      forms on which sponsors used the due diligence exemption to claim that
                      they were unable to obtain complete financial information. As
                      previously stated, Federal regulations allow sponsors to indicate that
                      they acted with due diligence but were unable to obtain financial
                      information from a clinical investigator. In total, sponsors indicated
                      that they were unable to provide financial information for 1,123 clinical
                      investigators. This is more than five times the 206 clinical investigators
                      who disclosed financial interests.

                      If sponsors use the due diligence exemption, regulations require them to
                      explain why they were unable to obtain the information. In 18 percent
                      of marketing applications indicating due diligence, sponsors did not
                      explain why they were unable to obtain financial information from all
                      clinical investigators, as required. When sponsors did include this

    OEI-05-07-00730   F D A’ S O V E R S I G H T   OF   C L I N I C A L I N V E S T I G AT O R S ’ F I N A N C I A L I N F O R M AT I O N   17
F   I N D I N G        S


                      explanation, they most often reported that clinical investigators could
                      not be located or failed to return the financial form.



FDA did not document a review of any financial               FDA reviewers did not document a
       information for 31 percent of marketing               review of financial information for
                                                             31 percent of marketing
                                  applications
                                                             applications. Over one-third of
                      these marketing applications included disclosed financial interests. If
                      FDA reviewers fail to document a review, division directors may
                      overlook disclosed financial interests and their potential impact on data
                      integrity.
                      Review templates increased the likelihood of a documented review of
                      financial information
                      Reviewers from CDER, the only center to consistently use a review
                      template, documented a review of financial information for 95 percent of
                      marketing applications. CDER reviewers used a review template
                      94 percent of the time when documenting a review of financial
                      information.

                      Reviewers from CBER documented a review of financial information in
                      23 percent of marketing applications. CBER is in the process of
                      finalizing a review template similar to CDER’s template. When CBER
                      reviewers documented a review of financial information, they always
                      used a template.

                      The CDER review template and CBER’s draft template prompt
                      reviewers to “discuss whether the applicant adequately disclosed
                      financial arrangements with clinical investigators and whether these
                      arrangements raise questions about the integrity of the data.” 46 The
                      review template assigns a specific member of the review team the
                      responsibility of reviewing financial information.

                      Reviewers from CDRH documented a review of financial information in
                      28 percent of marketing applications. CDRH reviewers do not use a
                      review template.




                          46 FDA, “Manual of Policies and Procedures: Clinical Review Template,” July 9, 2004,

                      p. 17. Available online at http://www.fda.gov/cder/mapp/6010.3.pdf. Accessed on
                      March 28, 2008.



    OEI-05-07-00730   F D A’ S O V E R S I G H T   OF   C L I N I C A L I N V E S T I G AT O R S ’ F I N A N C I A L I N F O R M AT I O N   18
F   I N D I N G                S


                              See Table 2 for FDA reviewers’ documented reviews of financial
                              information by center.



                        Table 2: FDA Reviewers’ Documented Reviews

                                                                                                Percentage of Marketing
                                                                                                      Applications With                                   Percentage of
                                                                                                Documented Reviews of                               Documented Reviews
                        FDA Center             Marketing Applications                              Financial Information                             Found in a Template
                        CDER                                                       73                                    95 percent                           94 percent

                        CDRH                                                       32                                    28 percent                           0 percent*

                        CBER                                                       13                                    23 percent                          100 percent

                           Total                                                 118                                    69 percent                           63 percent
                      * CDRH reviewers do not use a template.

                      Source: OIG analysis of FDA review notes, 2008.


                              Most documented reviews of marketing applications with disclosed financial
                              interests were detailed
                              Seventy-three percent of marketing applications with disclosed financial
                              interests had documented reviews. Among these documented reviews,
                              72 percent of review notes were detailed and the remaining 28 percent
                              were nondetailed.

                              Detailed notes provided evidence of more complete analyses of how
                              disclosed financial interests might affect clinical trial results. For
                              example, one detailed note stated that Dr. X “received more than
                              $25,000 in honoraria and travel expenses for educational activities. Any
                              bias was minimized by the independent data monitoring, by the use of
                              multiple investigators, and by the use of double-blind placebo-controlled
                              trials.”

                              Nondetailed notes indicated that a more cursory review may have been
                              undertaken. Most commonly, nondetailed notes either mentioned that
                              financial information was included or summarized the financial
                              information. For example, one nondetailed note stated that
                              “Certificates of financial disclosure were submitted in compliance with
                              the Final Rule on Financial Disclosure by Clinical Investigators.”

                              Division directors reading nondetailed notes may overlook or
                              underestimate the impact of disclosed financial interests on clinical trial
                              results. On the other hand, division directors can use detailed notes to



    OEI-05-07-00730           F D A’ S O V E R S I G H T   OF   C L I N I C A L I N V E S T I G AT O R S ’ F I N A N C I A L I N F O R M AT I O N                      19
F   I N D I N G        S


                      determine financial interests’ potential impact on data integrity before
                      recommending possible approval of a marketing application.



       Neither FDA nor sponsors took action for              Neither FDA reviewers nor
       20 percent of marketing applications with             sponsors noted taking action in
                                                             response to disclosed financial
                    disclosed financial interests
                                                             interests for 20 percent of
                      marketing applications with disclosed financial interests. FDA
                      reviewers did not take action on 88 percent 47 of marketing applications
                      with disclosed financial interests. However, in 67 percent of marketing
                      applications with disclosed financial interests, sponsors indicated that
                      they acted to minimize potential bias during the clinical trials. For
                      example, sponsors hired independent observers to monitor clinical trial
                      sites. Sponsors also prevented clinical investigators with financial
                      interests from knowing whether subjects were in the experimental or
                      the control group. When sponsors took action, FDA reviewers may have
                      judged sponsors’ actions to be sufficient, and have seen no need for
                      further action.
                      On the other hand, FDA reviewers did not take action on 20 percent of
                      marketing applications with disclosed financial interests upon which
                      sponsors did not indicate taking action to minimize potential bias. To
                      protect data integrity, sponsors are required to describe their actions to
                      minimize potential bias related to all disclosed financial interests.
                      Although FDA reviewers may have had other reasons to believe that
                      disclosed financial interests did not compromise data integrity, FDA
                      reviewers did not have the assurance that sponsors acted to minimize
                      potential bias during the clinical trials.

                      In addition, there was no documented FDA review of financial
                      information in more than half of the marketing applications upon which
                      no action was taken. Because FDA reviewers may have not reviewed
                      financial information, they may not have had sufficient information to
                      judge whether action to address potential bias was warranted.

                      See Table 3 on the next page for sponsors’ and FDA reviewers’ action in
                      response to marketing applications with disclosed financial interests.



                         47 FDA reviewers did not review 87.7 percent of marketing applications with disclosed
                      financial interests, which we have rounded to 88 percent.



    OEI-05-07-00730   F D A’ S O V E R S I G H T   OF   C L I N I C A L I N V E S T I G AT O R S ’ F I N A N C I A L I N F O R M AT I O N   20
F   I N D I N G               S



              Table 3: Sponsors’ and FDA Reviewers’ Actions

                                                                                         Number of Marketing                           Percentage of Marketing Applications
                                                                                                Applications                              With Disclosed Financial Interests
              No sponsor action; no FDA action                                                                           10                                      20 percent

              No sponsor action; FDA action                                                                                3                                      6 percent
              Sponsor action; no FDA action                                                                              33                                      67 percent
              Sponsor action; FDA action                                                                                   3                                      6 percent
                 Total                                                                                                   49                                    99 percent*
            * Total does not equal 100 percent because of rounding.

            Source: OIG analysis of marketing applications and FDA review notes, 2008.



                             FDA reviewers did not consistently take action in response to disclosed
                             financial interests
                             Based on FDA reviewers’ documented notes, FDA reviewers took action
                             inconsistently. FDA reviewers took action on 12 percent of marketing
                             applications with disclosed financial interests. However, FDA reviewers
                             did not take action on other marketing applications with disclosed
                             financial interests. In the cases in which FDA reviewers did not take
                             action, they may have determined that other aspects of the marketing
                             application mitigated the need for action, despite the disclosed financial
                             interests. However, if this was the case, FDA reviewers did not
                             document this assessment in their review notes. See Appendix E for a
                             description of FDA actions taken in response to disclosed financial
                             interests.
                             Marketing applications upon which FDA took action had disclosed
                             financial interests similar to marketing applications upon which FDA
                             reviewers took no action. In one marketing application, an FDA
                             reviewer took action when sponsors failed to provide any financial
                             forms. Yet FDA approved 7 percent of marketing applications without
                             any financial forms.

                             In another marketing application, an FDA reviewer took action when a
                             clinical investigator with disclosed financial interests enrolled a large
                             number of patients. However, a different FDA reviewer took no action
                             although two clinical investigators with disclosed financial interests
                             enrolled a quarter of all patients.
                             In a third marketing application, an FDA reviewer took action because
                             over a quarter of clinical investigators disclosed financial interests. Yet


    OEI-05-07-00730          F D A’ S O V E R S I G H T   OF   C L I N I C A L I N V E S T I G AT O R S ’ F I N A N C I A L I N F O R M AT I O N                     21
F   I N D I N G        S


                      on two other marketing applications, over a quarter of clinical
                      investigators disclosed financial interests, but no FDA action was taken.

                      Reviewer discretion may explain why action was taken in some
                      instances and not others. FDA states that reviewers should be given
                      the flexibility to consider financial information and steps taken to
                      minimize bias on a case-by-case basis. 48
                      Despite being given such discretion, only 10 percent of surveyed FDA
                      reviewers reported receiving instruction from FDA regarding how to
                      review financial information. In addition, 70 percent of surveyed
                      reviewers indicated that further instructions would be helpful.
                      Most FDA action can only occur after clinical trials are complete because
                      FDA receives financial information only with the marketing application
                      Most FDA action to ensure that disclosed financial interests do not
                      affect data integrity can occur only after clinical trials are complete
                      because FDA does not receive financial information before the
                      marketing application. FDA could take action during clinical trials,
                      such as conducting a BiMo inspection, if it were alerted to potential
                      issues related to financial interests. FDA encourages sponsors to
                      engage in early consultation with FDA if they are concerned about their
                      financial arrangements with clinical investigators. 49 However, all cases
                      of FDA reviewers’ actions in response to disclosed financial interests in
                      FY 2007 took place after the clinical trials were complete.

                      When sponsors submit financial information to FDA with the marketing
                      application, reviewers face time constraints. FDA’s review of marketing
                      applications is subject to nonbinding timelines, per Federal law. 50
                      Consequentially, FDA reviewers have limited time to take action to
                      determine how disclosed financial interests may have affected data
                      integrity. In fact, a previous OIG report found that 58 percent of CDER
                      reviewers had concerns about time constraints for approving marketing
                      applications. 51



                          48 63 Fed. Reg. 5236 (Feb. 2, 1998).
                          49 Ibid.
                          50 The Prescription Drug User Fee Act, 21 U.S.C. §§ 379g-h and the Medical Device User
                      Fee and Modernization Act, 21 U.S.C. § 379j authorize FDA to collect user fees from
                      manufacturers in an effort to streamline and improve the timeliness of the review and
                      approval of new drugs and medical devices.
                       51 OIG, “FDA’s Review Process for New Drug Applications,” OEI-01-01-00590,
                      March 2003.



    OEI-05-07-00730   F D A’ S O V E R S I G H T   OF   C L I N I C A L I N V E S T I G AT O R S ’ F I N A N C I A L I N F O R M AT I O N   22
Δ   R E C O M M E N D A T I O N S

                  Financial interests between clinical investigators and sponsors create a
                  potential for bias that may compromise the safety of human subjects
                  and the integrity of research data. Sponsors are required to disclose all
                  clinical investigators’ financial interests to FDA in the marketing
                  application. In FY 2007, only 1 percent of clinical investigators
                  disclosed a financial interest. By way of comparison, the Journal of the
                  American Medical Association reported that between 23 percent and
                  28 percent of academic researchers had financial interests in medical
                  companies. 52 Further, we found a number of limitations in FDA’s
                  oversight, leaving FDA unable to determine whether sponsors submit
                  financial information for all clinical investigators.

                  In addition, FDA approved 42 percent of marketing applications in
                  FY 2007 that were missing financial information. FDA did not
                  document a review of financial information for 31 percent of marketing
                  applications.

                  Finally, neither FDA nor sponsors took action for 20 percent of
                  marketing applications with disclosed financial interests. When FDA
                  did act, it did not consistently take action in response to disclosed
                  financial interests. These findings lead us to the following
                  recommendations:
                  FDA Should Ensure That Sponsors Submit Complete Financial Information
                  for All Clinical Investigators
                  To ensure that sponsors submit complete financial information for all
                  clinical investigators, we recommend the following:

                  FDA should use a complete list of clinical investigators to check that
                  sponsors have submitted financial information for all clinical investigators.
                  To check that sponsors have submitted financial information for all
                  clinical investigators, FDA should create a complete list of clinical
                  investigators for each marketing application. This could be done in a
                  variety of ways, including:

                  •          requiring that sponsors submit an updated list of clinical
                             investigators with the marketing application,




                      52 Justin E. Bekelman, et al., 2003. “Scope and Impact of Financial Conflicts of Interest
                  in Biomedical Research,” Journal of the American Medical Association, vol. 289(4), p. 456.
                  Available online at http://jama.ama-assn.org/cgi/reprint/289/4/454?ijkey=
                  9e08192f3f85916bd89686c6af4713ad33b514ea. Accessed on May 30, 2008.



OEI-05-07-00730   F D A’ S O V E R S I G H T   OF   C L I N I C A L I N V E S T I G AT O R S ’ F I N A N C I A L I N F O R M AT I O N   23
R   E C O        M M E N D A T                           I O N                 S


                      •          modifying the Bioresearch Monitoring Information System to
                                 identify all clinical investigators, or

                      •          modifying other FDA databases to capture information on clinical
                                 investigators and link it to marketing applications.

                      FDA should check that sponsors have submitted all required attachments to
                      financial forms. To ensure that sponsors have submitted required
                      attachments to financial forms, FDA centers should use a checklist that
                      includes a check for attachments to financial forms during the
                      administrative filing of marketing applications.

                      FDA should update guidance to sponsors regarding the due diligence
                      exemption. FDA should update guidance stressing that sponsors should
                      only rarely use the due diligence exemption. Given that sponsors are
                      required to obtain financial information from clinical investigators
                      before starting clinical trials, sponsors should always have the
                      information they need to submit to FDA.

                      In addition, FDA should update guidance to sponsors incorporating its
                      2002 explanation of due diligence, which is currently provided only in
                      Federal Register comments. This would clarify that due diligence is
                      making at least two telephone calls and sending two certified letters.
                      This sets a higher threshold for sponsors to meet before claiming the
                      due diligence exemption than the current threshold of “a reasonable
                      judgment made by the sponsor.”

                      FDA should add a review of financial information to the onsite inspection
                      protocol. To help identify previously unknown financial interests, FDA
                      should add a review of financial information to sponsor and clinical
                      investigator BiMo inspection protocols.
                      FDA Should Ensure That Reviewers Consistently Review Financial
                      Information and Take Action in Response to Disclosed Financial Interests
                      To ensure that reviewers consistently review and take action in
                      response to financial information, we recommend the following:

                      FDA should require that all centers consistently use a template that
                      includes a prompt to document a review of financial information. To help
                      ensure that reviews of financial information are completed and
                      documented, CBER should finalize its draft Clinical Review Template.
                      CDRH should develop a review template that includes a prompt to
                      document a review of financial information.




    OEI-05-07-00730   F D A’ S O V E R S I G H T   OF   C L I N I C A L I N V E S T I G AT O R S ’ F I N A N C I A L I N F O R M AT I O N   24
R   E C O        M M E N D A T                           I O N                 S


                      FDA should provide additional guidance and training to reviewers. The
                      guidance and training could address how to review financial
                      information, how to identify bias, and how and when to take action to
                      ensure data integrity.
                      FDA Should Require That Sponsors Submit Financial Information for
                      Clinical Investigators as Part of the Pretrial Application Process
                      We recommend that the pretrial application process be amended to
                      require that sponsors submit financial information for clinical
                      investigators. As each clinical investigator begins work on a clinical
                      trial, sponsors should be required to either certify that clinical
                      investigators do not have a financial interest with the sponsor or
                      disclose a financial interest. For disclosed financial interests, sponsors
                      should describe the financial interest and sponsors’ actions to minimize
                      any potential bias these financial interests may cause.

                      Implementing this recommendation would require only minimal
                      changes to FDA’s current process. Sponsors are already required to
                      collect financial information from clinical investigators prior to
                      beginning clinical trials. Further, FDA already engages with sponsors
                      during the clinical trials. First, FDA approves the clinical trial protocol
                      as part of the pretrial application. Then, as clinical trials get underway,
                      sponsors are required to submit information on each clinical
                      investigator they hire. Financial information for each clinical
                      investigator could be included with these submissions. However, we
                      recognize that FDA reviewers face time and resource constraints. Thus,
                      we recommend that FDA build this review into the pretrial application
                      process in the best way it sees fit, perhaps focusing most attention on
                      disclosed financial interests.

                      If FDA received financial information before clinical trials, FDA could
                      ensure that sponsors are collecting financial information before trials
                      and are taking action to ensure that disclosed financial interests do not
                      threaten human subjects or compromise data integrity. In addition,
                      FDA is now devoting one-third of BiMo resources to ongoing clinical
                      trials, as opposed to focusing solely on completed trials, according to
                      FDA officials. Having information about a clinical investigator’s
                      financial interest could help FDA target which clinical trial sites are
                      chosen for BiMo inspections. Finally, FDA has acknowledged the
                      importance of obtaining this information before a clinical trial. FDA
                      asserts that receiving clinical investigators’ financial information before



    OEI-05-07-00730   F D A’ S O V E R S I G H T   OF   C L I N I C A L I N V E S T I G AT O R S ’ F I N A N C I A L I N F O R M AT I O N   25
R   E C O        M M E N D A T                           I O N                 S


                      a trial allows sponsors the opportunity to consult with FDA and take
                      action to minimize any potential study bias. 53
                      In addition to requiring that sponsors submit financial information
                      during the pretrial application process, sponsors should still be required
                      to submit financial information with the marketing application. This
                      ensures that FDA can review updated financial information for clinical
                      investigators. It also ensures that financial information will be
                      submitted for any clinical investigators whose information was not
                      submitted as part of the pretrial application process.


                      AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                      RESPONSE
                      FDA expressed concerns about elements of our analysis in three of our
                      findings. In addition, FDA agreed with all of our recommendations
                      except the recommendation that FDA require sponsors to submit
                      financial information for clinical investigators as part of the pretrial
                      application process.

                      With respect to the first finding that 1 percent of clinical investigators
                      disclosed a financial interest, FDA disagreed with our decision to report
                      36 disclosures for employees of the sponsor. Based on FDA’s concern,
                      we removed 34 disclosures for employees from our analysis because it
                      was ambiguous whether sponsors were disclosing a financial interest for
                      these employees. Two employees had clearly disclosed financial
                      interests and thus were kept in our analysis. FDA also objected to our
                      decision to report 12 disclosures that fell below the defined threshold.
                      We continue to include these disclosures because it was our intention to
                      describe all disclosures in FY 2007, even those not required by
                      regulation. We assumed that sponsors purposefully disclosed these
                      financial interests to FDA and did not question the validity of the
                      disclosures.

                      In our second finding, we state that FDA cannot determine whether
                      sponsors have submitted financial information for all clinical
                      investigators because it does not have a complete list of clinical
                      investigators. FDA took exception to our statement that FDA could
                      provide complete lists of clinical investigators for only 7 percent of
                      marketing applications. FDA believed that we did not clearly ask for


                          53 67 Fed. Reg. 6042 (Feb. 8, 2002)




    OEI-05-07-00730   F D A’ S O V E R S I G H T   OF   C L I N I C A L I N V E S T I G AT O R S ’ F I N A N C I A L I N F O R M AT I O N   26
R   E C O        M M E N D A T                           I O N                 S


                      this information. However, we submitted an official written request to
                      FDA for a list of clinical investigators from approved marketing
                      applications. From discussions with FDA, we understood that there is
                      often no list of clinical investigators in marketing applications but that
                      FDA would provide us these lists when found. In fact, subsequently
                      FDA did provide us with some lists of clinical investigators, but we
                      could not validate the accuracy or completeness of the lists provided.

                      Finally, FDA did not agree with our decision to consider applications
                      indicating due diligence as incomplete. We acknowledge that
                      regulations allow sponsors to claim the due diligence exemption, but we
                      maintain that sponsors’ failure to submit financial information for all
                      clinical investigators, whether they indicated due diligence or not,
                      constitutes missing financial information. In these cases, FDA
                      reviewers have incomplete knowledge of clinical investigators’ financial
                      information.

                      In response to our recommendation that FDA ensure that sponsors
                      submit complete financial information, FDA stated that it is considering
                      revising its guidance to industry to instruct sponsors to provide a table
                      listing all clinical investigators and indicating whether a certification
                      form, a disclosure form, or the due diligence exemption is being
                      provided. FDA also stated that it is reviewing its procedures to
                      determine whether modifications are needed to ensure that all required
                      attachments are submitted. In addition, FDA stated that it is
                      considering providing additional advice to sponsors on the use of the due
                      diligence exemption. Finally, FDA stated that it has updated its onsite
                      inspection protocol to include a closer inspection of financial
                      information.

                      In response to our recommendation that FDA reviewers consistently
                      review financial information, FDA indicated that it is evaluating its
                      review procedures and templates. In addition, FDA is considering
                      developing additional guidance and training for reviewers on the review
                      of financial disclosure information.

                      For many reasons, FDA did not agree with our final recommendation
                      that FDA require sponsors to submit financial information for clinical
                      investigators as part of the pretrial application process.

                      FDA emphasized that collecting financial information before a clinical
                      trial starts is the sponsors’ responsibility. However, FDA has no
                      mechanism to ensure that sponsors are collecting financial information
                      before beginning clinical trials. In fact, FDA commented that sponsors

    OEI-05-07-00730   F D A’ S O V E R S I G H T   OF   C L I N I C A L I N V E S T I G AT O R S ’ F I N A N C I A L I N F O R M AT I O N   27
R   E C O        M M E N D A T                           I O N                 S


                      may find obtaining financial information difficult because there can be a
                      significant amount of time between completion of a clinical trial and
                      submission of the marketing application. However, if sponsors were
                      collecting financial information for all clinical investigators before they
                      participated in a clinical trial as required, the lag time between when
                      the clinical trial ended and when the marketing application was
                      submitted would be irrelevant. Receiving financial information during
                      the pretrial application process would allow FDA to ensure that
                      sponsors were collecting financial information before beginning clinical
                      trials, as required.

                      FDA also stated that financial interests are only one potential source of
                      bias of clinical trials, emphasizing the importance of proper study
                      design as a means for minimizing bias. Although it is true that there
                      are multiple sources of potential bias, FDA acknowledged that sponsors
                      are required to collect financial information before beginning a clinical
                      trial so that they can identify and manage all potential sources of bias to
                      ensure that human subjects are protected and data are reliable.
                      Similarly, FDA could use information on all potential sources of bias,
                      including financial information, to help sponsors identify potential bias
                      before beginning clinical trials.

                      FDA also believes that for industry to collect and submit financial
                      information and for FDA to review this information during the pretrial
                      application process would represent significant additional work.
                      However, pursuant to regulation, FDA already requires sponsors to
                      collect financial information from clinical investigators before starting a
                      clinical trial. In addition, basic information on clinical investigators is
                      submitted to FDA as they are added to clinical trials. Thus, it is unclear
                      how submitting financial information that is already collected, as well
                      as the other information on clinical investigators that sponsors submit
                      to FDA, would be a significant addition of effort on sponsors’ part.
                      Further, FDA stated that it intends to improve its oversight of ongoing
                      clinical trials. Therefore, receiving financial information about ongoing
                      clinical trials adds to an oversight initiative that is presently underway.

                      FDA also pointed out that many clinical trials are ultimately not
                      submitted in a marketing application, thus making a review of financial
                      information in the pretrial application process a potential waste of time.
                      However, FDA stated its intention to improve its oversight of ongoing
                      trials. Further, even if clinical trials do not result in a marketing
                      application, the investigational products are still being tested on human


    OEI-05-07-00730   F D A’ S O V E R S I G H T   OF   C L I N I C A L I N V E S T I G AT O R S ’ F I N A N C I A L I N F O R M AT I O N   28
R   E C O        M M E N D A T                           I O N                 S


                      subjects. To protect human subjects, FDA should take a proactive
                      approach to ensure that clinical investigators are not biased when
                      recruiting and testing investigational products on human subjects.

                      We continue to recommend that FDA require sponsors to submit
                      financial information as part of the pretrial application process.
                      Acknowledging the added burden to FDA’s administrative and review
                      staff, we encourage FDA to develop a review of financial information
                      that best balances the additional effort with the potential benefits.

                      For the full text of FDA’s comments, see Appendix F. FDA’s technical
                      comments are not included, but we made changes in the report where
                      appropriate.




    OEI-05-07-00730   F D A’ S O V E R S I G H T   OF   C L I N I C A L I N V E S T I G AT O R S ’ F I N A N C I A L I N F O R M AT I O N   29
Δ   A P P E N D I X                                 ~             A


     CERTIFICATION OF NO FINANCIAL INTERESTS, FORM 3454




OEI-05-07-00730   F D A’ S O V E R S I G H T   OF   C L I N I C A L I N V E S T I G AT O R S ’ F I N A N C I A L I N F O R M AT I O N   30
Δ      A P P E N D I X                                    ~             B


     DISCLOSURE OF FINANCIAL INTERESTS, FORM 3455




OEI-05-07-00730   F D A’ S O V E R S I G H T   OF   C L I N I C A L I N V E S T I G AT O R S ’ F I N A N C I A L I N F O R M AT I O N   31
Δ               A P P E N D I X                                                                       ~             C




                                                              FINANCIAL FORMS SUBMITTED TO EACH CENTER IN FISCAL
                                                              YEAR 2007



 Chart 1: Financial Forms Submitted to Each Food and Drug Administration Center in FY 2007



                                                    80


                                                    75


                                                    70
                                                                        4

                                                    65
                                                                                                           Does Not Include Any Financial Information
                 Number of Marketing Applications




                                                    60


                                                    55
                                                                         31                                Includes Forms That Disclose Financial Interests
                                                    50


                                                    45

                                                                                                           Includes Only Forms Certifying No Financial Interests
                                                    40


                                                    35


                                                    30                                                                                 3

                                                    25

                                                                                                                                     17
                                                    20
                                                                        38
                                                    15

                                                                                                                                                                                                   1
                                                    10                                                                                                                                             1

                                                     5                                                                               12                                                  11

                                                     0

                                                                Center for                                               Center for                                                  Center for
                                                         Drug Evaluation and Research                           Device and Radiological Health                            Biologics Evaluation and Research

                                                                                                          Food and Drug Administration Center




Source: Office of Inspector General analysis of marketing applications, 2008.




      OEI-05-07-00730                                         F D A’ S O V E R S I G H T   OF   C L I N I C A L I N V E S T I G AT O R S ’ F I N A N C I A L I N F O R M AT I O N                             32
Δ      A P P E N D I X                                            ~             D


                          RESPONSE RATES FOR REVIEWER SURVEY
                          Our goal was to survey the Food and Drug Administration (FDA)
                          reviewers who evaluated financial information within the past 3 years.
                          However, not all centers could identify a specific population of reviewers
                          that evaluate financial information. Therefore, for two centers, we sent
                          surveys to all reviewers who reviewed a marketing application in the
                          last 3 years. Thus, we distributed our survey to a high proportion of
                          reviewers who did not evaluate financial information in the past
                          3 years. See Table 4 for survey responses by FDA center.




        Table 4: Survey Responses by FDA Center


                                                                                                                                                         Respondents Who
                                                                                               Total Surveys                        Total              Reported Evaluating
        Center                                     Survey Recipients                                    Sent                  Respondents             Financial Information

        Center for Drug
        Evaluation and
        Research (CDER)*
                                                        Medical officers                                         308                            109                     87
                                                    Reviewers who
        Center for Devices and
                                              reviewed a marketing
        Radiological Health
                                              application in the last
        (CDRH)**
                                                             3 years                                             305                            176                     61
                                                    Reviewers who
        Center for Biologics
                                              reviewed a marketing
        Evaluation and
                                              application in the last
        Research (CBER)**
                                                             3 years                                             177                             52                     14

            Total                                                                                                790                            337                    162

      * CDER identified medical officers as the discipline of reviewers who routinely evaluate financial information.

      ** CDRH and CBER could not identify a specific discipline of reviewers who routinely evaluate financial information. Therefore, the
      centers identified all reviewers who reviewed a marketing application in the last 3 years, regardless of whether they evaluated
      financial information.

      Source: Office of the Inspector General analysis of electronic survey respondents, 2008.




OEI-05-07-00730           F D A’ S O V E R S I G H T   OF   C L I N I C A L I N V E S T I G AT O R S ’ F I N A N C I A L I N F O R M AT I O N                          33
Δ      A P P E N D I X                                      ~             E


                    DESCRIPTION OF FOOD AND DRUG ADMINISTRATION
                    ACTION
                    When the Food and Drug Administration (FDA) reviewers took action in
                    response to disclosed financial interests, they most often conducted their
                    own analyses to identify potential bias. Additionally, two reviewers
                    requested inspections from the Bioresearch Monitoring Program (BiMo)
                    and one reviewer requested additional analysis from the sponsor. As a
                    result of their actions, FDA reviewers determined that the disclosed
                    financial interests did not compromise the integrity of the data. See
                    Table 5 for details of FDA action for the six marketing applications on
                    which FDA took action.

                  Table 5: Details of FDA Actions in Response to Marketing Applications
                  With Disclosed Financial Interests

                   FDA Action Per Marketing Application                                                                        Reason Action Was Taken
                  Compared outcomes from investigators with                                                    Over a quarter of clinical investigators had
                  financial interests against those without                                                                   disclosed financial interests
                  Compared outcomes from investigators with                                                    Some clinical investigators with disclosed
                  financial interests against study mean*                                                   financial interests had very favorable results
                  Compared outcomes from investigators with
                                                                                                                                              Unspecified
                  financial interests against study mean*
                  Requested a BiMo inspection of an investigator                                           Investigator disclosed a financial interest and
                  with a financial interest                                                                               had a large number of patients
                                                                                                               The sponsor originally did not submit any
                  Requested a BiMo inspection of the sponsor
                                                                                                                                          financial forms
                  Requested that the sponsor submit reanalysis
                  of study outcomes excluding clinical                                                                                        Unspecified
                  investigators with financial interests*
                  * Indicates marketing applications upon which sponsors also took action to decrease bias.

                  Source: Office of Inspector General analysis of marketing applications and FDA review notes, 2008.




OEI-05-07-00730     F D A’ S O V E R S I G H T   OF   C L I N I C A L I N V E S T I G AT O R S ’ F I N A N C I A L I N F O R M AT I O N                 34
Δ   A P P E N D I X                                 ~             F



                  AGENCY COMMENTS




OEI-05-07-00730   F D A’ S O V E R S I G H T   OF   C L I N I C A L I N V E S T I G AT O R S ’ F I N A N C I A L I N F O R M AT I O N   35
A   P   P E N D       I X            ~             F




    OEI-05-07-00730   F D A’ S O V E R S I G H T   OF   C L I N I C A L I N V E S T I G AT O R S ’ F I N A N C I A L I N F O R M AT I O N   36
A   P   P E N D       I X            ~             F




    OEI-05-07-00730   F D A’ S O V E R S I G H T   OF   C L I N I C A L I N V E S T I G AT O R S ’ F I N A N C I A L I N F O R M AT I O N   37
A   P   P E N D       I X            ~             F




    OEI-05-07-00730   F D A’ S O V E R S I G H T   OF   C L I N I C A L I N V E S T I G AT O R S ’ F I N A N C I A L I N F O R M AT I O N   38
A   P   P E N D       I X            ~             F




    OEI-05-07-00730   F D A’ S O V E R S I G H T   OF   C L I N I C A L I N V E S T I G AT O R S ’ F I N A N C I A L I N F O R M AT I O N   39
A   P   P E N D       I X            ~             F




    OEI-05-07-00730   F D A’ S O V E R S I G H T   OF   C L I N I C A L I N V E S T I G AT O R S ’ F I N A N C I A L I N F O R M AT I O N   40
A   P   P E N D       I X            ~             F




    OEI-05-07-00730   F D A’ S O V E R S I G H T   OF   C L I N I C A L I N V E S T I G AT O R S ’ F I N A N C I A L I N F O R M AT I O N   41
A   P   P E N D       I X            ~             F




    OEI-05-07-00730   F D A’ S O V E R S I G H T   OF   C L I N I C A L I N V E S T I G AT O R S ’ F I N A N C I A L I N F O R M AT I O N   42
A   P   P E N D       I X            ~             F




    OEI-05-07-00730   F D A’ S O V E R S I G H T   OF   C L I N I C A L I N V E S T I G AT O R S ’ F I N A N C I A L I N F O R M AT I O N   43
A   P   P E N D       I X            ~             A
                                                   D
Δ       A C K N O W L E D G M
                            E M
                              E N
                                E N
                                  T ST S

                      This report was prepared under the direction of Ann Maxwell, Regional
                      Inspector General for Evaluation and Inspections in the Chicago
                      regional office, and Thomas Komaniecki, Deputy Regional Inspector
                      General.

                      Anne Bracken led this study and Beth McDowell served as the lead
                      analyst. Other principal Office of Evaluation and Inspections staff from
                      the Chicago regional office who contributed to the report include Abby
                      Lopez; central office staff who contributed include Robert Gibbons,
                      Ayana Everett, Matthew McMullen, and Talisha Searcy.




    OEI-05-07-00730   F D A’ S O V E R S I G H T   OF   C L I N I C A L I N V E S T I G AT O R S ’ F I N A N C I A L I N F O R M AT I O N   44
